                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          We received an allegation1that plagiarized text appeared in a proposal2 submitted by the
          subject3to NSF. We established substance to the allegation, and also identified a small amount
          of potential plagiarism in another proposal4 submitted by the subject to NSF. Analysis of other
          NSF proposals submitted by the subject provided no support for other instances of potential
          plagiarism. Both proposals in which plagiarism was detected were declined for funding. The
          duplicated text was not set off from the other text in the proposal, either through explicit
    I     attribution or quotation. We contacted the subject.

          The subject admitted that the plagiarized text appears as identified in his proposals. He claims
          that the plagiarized text was inserted into the proposal by a graduate student who assisted in
          proposal preparation. The duplicated texts are predominantly introductory material as might be
          assigned to a graduate student for composition, and, since the plagiarized text is available on the
          web, the explanation is believable. The subject expresses regret that the text from the source
          documents was not appropriately paraphrased in his proposal. The subject attempts to minimize
          the impact of the identified plagiarism by describing the content of the text as consensus ideas of
          the community. In a follow-up letter to the subject, we expressed our strong disagreement with
          this assertion, emphasizing that use of another's exact words for expression of the ideas is indeed
          a serious violation of scholarship standards. We also addressed the need for clear
          communication of standards of scholarship to all involved in the preparation of a proposal in
          letter.

          We examined other NSF proposals by the subject and found no evidence of plagiarism in those
          proposals. The need for strict attention to standards of scholarship in the composition of NSF
          proposals is emphasized in our letters to the subject. The strong exhortation is sufficient to
          protect NSF's interests. Accordingly, this case is closed.




          ' redacted.
            redacted.
            redacted.
          4
            redacted.


'NSF 01G Form 2 (1 1/02)
I
